TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Office of Appeals Continues to
                      Experience Difficulties in the Handling
                        of Collection Due Process Cases



                                      September 17, 2013

                              Reference Number: 2013-10-103




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


THE OFFICE OF APPEALS CONTINUES                        TIGTA also identified delays in the initial
TO EXPERIENCE DIFFICULTIES IN THE                      processing of requests for hearings prior to
HANDLING OF COLLECTION DUE                             receipt by Office of Appeals personnel. Some
PROCESS CASES                                          taxpayer requests for a hearing took over
                                                       90 days to reach Office of Appeals personnel
                                                       from the Compliance function, which could have
Highlights                                             affected the taxpayer’s due process rights.
                                                       WHAT TIGTA RECOMMENDED
Final Report issued on
September 17, 2013                                     TIGTA recommended that the Chief, Appeals,
                                                       correct the taxpayer accounts that were
Highlights of Reference Number: 2013-10-103            identified with Collection Statute Expiration Date
to the Internal Revenue Service Chief of               errors.
Appeals.                                               In their response, IRS management agreed with
                                                       our recommendation and stated that all errors
IMPACT ON TAXPAYERS
                                                       on the taxpayers’ accounts have been corrected.
The Collection Due Process Program was
designed to allow taxpayers a process for
exercising their right to appeal when the IRS
files a lien or a Notice of Intent to Levy against
them. Additional improvements are needed to
ensure that statutory requirements are met.
Misclassified hearing requests, inaccurate
collection action suspensions, and inconsistent
documentation of impartiality may result in
taxpayers not receiving their full rights during an
Appeals hearing.
WHY TIGTA DID THE AUDIT
This audit was initiated because TIGTA is
statutorily required to determine whether the IRS
complied with the provisions of 26 United States
Code Sections 6320(b) and (c) and 6330(b) and
(c) when taxpayers exercised their rights to
appeal the filing of a Notice of Federal Tax Lien
or the issuance of a Notice of Intent to Levy.
WHAT TIGTA FOUND
In this year’s audit, TIGTA continued to identify
the same deficiencies in the IRS’s processing of
Collection Due Process cases as previously
reported. Specifically, the Office of Appeals did
not always classify taxpayer requests properly
and, as a result, some taxpayers received the
wrong type of hearing; errors continued relating
to the determination of the Collection Statute
Expiration Date on taxpayer accounts; and
Appeals personnel did not always document
their impartiality statement in hearing notification
letters issued to taxpayers.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 17, 2013


 MEMORANDUM FOR CHIEF, APPEALS


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Office of Appeals Continues to Experience
                             Difficulties in the Handling of Collection Due Process Cases
                             (Audit # 201310001)

 This report presents the results of our statutory review of the Appeals’ Collection Due Process
 Program. The overall objective of this review was to determine whether the Internal Revenue
 Service (IRS) complied with 26 United States Code Sections 6320 (b) and (c) and 6330 (b) and
 (c) when taxpayers exercised their right to appeal the filing of a Notice of Federal Tax Lien or
 issuance of a Notice of Intent to Levy. This audit is included in our Fiscal Year 2013 Annual
 Audit Plan and addresses the major management challenge of Taxpayer Protection and Rights.
 Management’s complete response to the draft report is included as Appendix VIII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).
                                The Office of Appeals Continues to Experience
                         Difficulties in the Handling of Collection Due Process Cases




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Some Taxpayers Did Not Receive the Appropriate Type
          of Hearing ..................................................................................................... Page 3
          The Collection Statute Expiration Date Was Not Always
          Computed Correctly ...................................................................................... Page 4
                    Recommendation 1:.......................................................... Page 5

          Hearing Officers Did Not Always Document Their
          Impartiality As Required............................................................................... Page 5
          Some Taxpayer Collection Due Process Hearing and
          Equivalent Hearing Requests Were Not Always Timely
          Referred to Appeals ...................................................................................... Page 6

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 8
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Outcome Measures............................................................... Page 12
          Appendix V – Collection Due Process Procedures....................................... Page 15
          Appendix VI – Time Periods for Collection Due Process
          and Equivalent Hearings ............................................................................... Page 17
          Appendix VII – Prior Mandatory Collection Due Process
          Audit Reports ................................................................................................ Page 18
          Appendix VIII – Management’s Response to the Draft Report .................. Page 19
                The Office of Appeals Continues to Experience
         Difficulties in the Handling of Collection Due Process Cases




                       Abbreviations

CDP              Collection Due Process
CSED             Collection Statute Expiration Date
EH               Equivalent Hearing
FY               Fiscal Year
IRS              Internal Revenue Service
TIGTA            Treasury Inspector General for Tax Administration
U.S.C.           United States Code
                             The Office of Appeals Continues to Experience
                      Difficulties in the Handling of Collection Due Process Cases




                                             Background

When initial contacts by the Internal Revenue Service (IRS) do not result in the successful
collection of unpaid tax, the IRS has the authority to attach a claim to a taxpayer’s assets with a
Letter 3172, Notice of Federal Tax Lien Filing and Your Rights to a Hearing Under IRC 6320
(lien).1 The IRS also has the authority to seize or levy a taxpayer’s property, such as wages or
bank accounts, to satisfy a taxpayer’s debt.2 However, before a levy can be placed on a
taxpayer’s account, the IRS must issue the taxpayer a Letter 11 or Letter 1058, Notice of Intent to
Levy and Notice of Your Right to a Hearing (levy).
In January 1996, Congress modified collection activity provisions that allowed taxpayers to
appeal the filing of a lien and proposed or actual levies.3 Further, Congress enacted legislation to
protect taxpayers’ rights in the IRS Restructuring and Reform Act of 1998, which gave taxpayers
the right to a hearing with the Office of Appeals (Appeals) under the Collection Due Process
(CDP)4 provisions.5 The Office of Appeals is independent of other IRS offices, and its mission is
to resolve tax controversies, without litigation, on a basis that is fair and impartial to both the
Federal Government and the taxpayer.
When a taxpayer timely requests an Appeals hearing regarding the filing of a lien or the issuance
of a Notice of Intent to Levy, the taxpayer is granted a CDP hearing. However, if the taxpayer’s
request for a CDP hearing is not received within the allotted time, usually within 30 calendar
days, the taxpayer, at the discretion of Appeals, may be granted an Equivalent Hearing (EH).
The taxpayer must request an EH within one year of the issuance of the Notice of Intent to Levy
or the filing of a lien. Taxpayers have the right to petition the U.S. Tax Court if they disagree
with Appeals’ decision on a CDP hearing, a right which is not afforded to those taxpayers who
are granted an EH.
When Appeals makes a final decision on a taxpayer’s case, the hearing officer will issue a:
       Determination Letter 3193 – Notice of Determination Concerning Collection Actions
        Under Sections 6320 and 6330.




1
  26 United States Code (U.S.C.) Section (§) 6321.
2
  26 U.S.C. § 6331.
3
  Taxpayer Bill of Rights 2, Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified as amended in scattered sections
of 26 U.S.C.).
4
  See Appendix V for an explanation of the CDP and EH procedures.
5
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                                                                                            Page 1
                               The Office of Appeals Continues to Experience
                        Difficulties in the Handling of Collection Due Process Cases



          Decision Letter 3210 – Decision Letter Concerning Equivalent Hearing Under Section
           6320 and/or 6330.
          Waiver Letter 4382 – Waiver of Appeals Notice of Determination in a Collection Due
           Process Hearing.
          Withdrawal Letter 4383 – Withdrawal of Request for Collection Due Process or
           Equivalent Hearing.
Waiver Letter 4382 is used when the taxpayer and the IRS agree on a viable collection
alternative. Withdrawal Letter 4383 is used when the taxpayer has reached a resolution with the
IRS regarding the tax and tax periods and he or she is otherwise satisfied that a hearing with
Appeals is no longer needed. During Fiscal Year (FY) 2012, Appeals closed 47,855 CDP and
11,615 EH taxpayer cases.
The Treasury Inspector General for Tax Administration (TIGTA) is required to determine
annually whether the IRS complied with legal guidelines and procedures for the filing of a lien or
a Notice of Intent to Levy and the right of the taxpayer to appeal these actions.6 This is our
thirteenth annual audit of taxpayer appeal rights.
The period for this year’s audit covered CDP and EH taxpayer cases closed between
October 1, 2011, and September 30, 2012. This review was performed by contacting Appeals
personnel in San Francisco, California; Baltimore, Maryland; St. Paul, Minnesota; and
Syracuse, New York, during the period October 2012 through May 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




6
    26 U.S.C. §§ 7803(d)(1)(A)(iii) and (iv) (Supp. III 2000).
                                                                                            Page 2
                             The Office of Appeals Continues to Experience
                      Difficulties in the Handling of Collection Due Process Cases




                                       Results of Review

Some Taxpayers Did Not Receive the Appropriate Type of Hearing
We identified six taxpayer cases (*****1*****) in our two statistically valid samples of
66 CDP and 66 EH taxpayer cases that were misclassified. This is an increase from the four
misclassified taxpayer cases that we identified in our prior review.7
********************************1********************************************
************************************1********.8 ******************************
************************************1****************************************.
********************************************1*******************************
*********1*************. CDP provisions allow taxpayers the right to petition the U.S. Tax
Court if they disagree with Appeals’ final determination or decision, whereas an EH does not
provide this right. *****************************1*******************************
**************************1***********************.9 Based on errors identified **1**
**1*** 66 CDP taxpayer cases we reviewed, we project from the total population that an
estimated 1,450 of 47,855 taxpayer cases may have incorrectly received a CDP hearing during
FY 2012 instead of an EH as required.
In addition, we identified four EH taxpayer cases where requests were filed late or were
incorrectly processed.10 **********************************1***********************
**********************************************1******************************
****************************************1***************************. Based on
errors identified in **1** of the 66 EH taxpayer cases we reviewed, we project from the total
population that an estimated 352 of 11,615 taxpayer cases may have been inappropriately
granted an EH even though the request was made more than one year after the notice was issued.
*******************************************1********************************
***************************1********************. This is an issue because a taxpayer
is entitled to only one hearing for the tax period related to the unpaid tax.11 Finally, we identified
*************************************1***************************************


7
  TIGTA, Ref. No. 2012-10-077, Office of Appeals Errors in the Handling of Collection Due Process Cases
Continue to Exist (Jul. 2012).
8
  For more information on the time periods to file an appeal, see Appendix VI.
9
  Determination Letter 3193 provides the taxpayer with the right to petition the U.S. Tax Court.
10
   A taxpayer must submit a written request for an EH within the one-year period starting the day after the date of
the CDP Notice of Levy.
11
   26 U.S.C. §§6320(b)(2) and 6330(b)(2).
                                                                                                               Page 3
                         The Office of Appeals Continues to Experience
                  Difficulties in the Handling of Collection Due Process Cases



**********************************************1****************************
********************1***************. Based on the errors in **1**of the 66 EH taxpayer
cases, we project from the total population that 352 of 11,615 taxpayer cases were incorrectly
processed and the taxpayers were inappropriately provided an EH.
Appeals management agreed with our analysis and indicated that the six taxpayer cases were
misclassified due to incorrect judgment on the part of hearing officers. We are not making a
recommendation for this finding at this time. In the previous review, we recommended that
Appeals management provide refresher training to Appeals personnel to reemphasize the process
to follow when determining whether a taxpayer is entitled to a CDP hearing or an EH. Appeals
management agreed with our recommendation and planned to develop a refresher class on the
topic of determining timeliness of CDP and EH requests. The class will be made available as a
Continuing Professional Education topic to Appeals technical employees who work CDP cases.
The due date for this corrective action is September 15, 2013.

The Collection Statute Expiration Date Was Not Always Computed
Correctly
We also identified 14 taxpayer cases that had an incorrect Collection Statute Expiration Date
(CSED) in our two statistically valid samples of CDP and EH taxpayer cases. For the
14 taxpayer cases we identified, the IRS incorrectly increased the CSED time period in eight of
the CDP taxpayer cases, allowing the IRS additional time it should not have had to collect the
delinquent taxes. In the remaining six taxpayer cases, the IRS incorrectly decreased the time the
IRS had to collect the delinquent taxes. We project that a total of 10,151 of the 47,855 CDP
taxpayer cases closed in FY 2012 may have an incorrect CSED (5,801 taxpayer cases had time
extended in error and 4,350 taxpayer cases had collection time shortened). We also noted that
the number of CSED errors has decreased from the last review, where we identified a total of
16 CSED errors.
The IRS generally has 10 years from the date of assessment to collect a liability owed by a
taxpayer. The final date to collect is referred to as the CSED. Because the IRS usually stops
collection activity during the Appeals process, the CSED is temporarily suspended during a CDP
hearing. Specifically, the IRS suspends the 10-year statute of limitations from the date of the
CDP hearing request until the date the Appeals determination is made final or the date the IRS
receives the taxpayer’s withdrawal request.
When the IRS suspends the collection statute for a period longer than its policy allows, it
potentially violates taxpayer rights. Conversely, when CSEDs are incorrectly shortened, the IRS
has less time to collect delinquent taxes, which could cause the IRS a potential loss of revenue.
Incorrect CSED dates resulted from IRS employees incorrectly calculating the suspension start



                                                                                           Page 4
                             The Office of Appeals Continues to Experience
                      Difficulties in the Handling of Collection Due Process Cases



date.12 Our review identified that the code needed to designate the end of the collection statute
suspension was not input or the suspension end date was incorrect. The statute suspension is
systemically controlled on the Integrated Data Retrieval System.13 One code is entered to start
the suspension and another is entered to stop the suspension and restart the statute period.
Generally, the code input to suspend the collection statute is entered by the Collection function;
however, in certain instances, Appeals personnel are responsible for the input. Upon completion
of each CDP hearing, Appeals is responsible for entering the code to remove the suspension of
the statute period. The Integrated Data Retrieval System will systemically recalculate the CSED
based on the dates entered for the two codes (which reflect the length of the Appeals hearing plus
expiration of the time period for seeking judicial review or the exhaustion of any rights to appeal
following judicial review).
Appeals management agreed with the number of CSED exceptions and informed us that they
plan to correct the accounts of those taxpayers with incorrect CSEDs.

Recommendation
Recommendation 1: The Chief, Appeals, should review and correct the 14 taxpayer accounts
that we identified with CSED errors.
         Management’s Response: IRS management agreed with this recommendation.
         Management indicated that they have corrected all errors on the taxpayers’ accounts
         identified in this audit.

Hearing Officers Did Not Always Document Their Impartiality As
Required
During this review, we identified that 13 of the 132 taxpayer cases in our two statistically valid
samples did not have the required impartiality statement in the waiver and withdrawal letters sent
to taxpayers:
        Seven taxpayer cases (****1**********) did not include the impartiality statement on
         Waiver Letter 4382. This letter is issued at the conclusion of a CDP or EH hearing when
         an agreement is reached and the taxpayer waives the right to a judicial review.




12
   The statute of limitations is suspended from the date the IRS receives a timely filed request for a CDP hearing to
the date the taxpayer’s withdrawal is received by the IRS or the date the determination from Appeals becomes final,
including any court appeals.
13
   The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                              Page 5
                             The Office of Appeals Continues to Experience
                      Difficulties in the Handling of Collection Due Process Cases



        Six taxpayer cases (*******1**********) did not include the impartiality statement on
         Withdrawal Letter 4383. This letter is issued when a taxpayer no longer wishes to
         participate in the CDP or EH hearing and withdraws his or her request for an appeal.
The 13 errors we identified represent an increase from our prior review, which identified
10 taxpayer cases without an impartiality statement documented as required.14 We estimate that
7,251 of the 47,855 CDP taxpayer cases and 528 of the 11,615 EH taxpayer cases closed in
FY 2012 may not contain the required impartiality statement. However, we found that hearing
officers properly documented the impartiality statement in the Case Activity Records as well as
the CDP Notices of Determination and the EH Decision Letters issued to the taxpayers for all of
the taxpayer cases we reviewed.15
The law requires that a CDP hearing be conducted by an impartial hearing officer who has had
no prior involvement with the unpaid tax.16 In addition, the Appeals’ Internal Revenue Manual
extends this requirement to all hearing officers, including those working EHs cases. The Internal
Revenue Manual specifies that each hearing officer must document “no prior involvement” in
the Case Activity Record during the initial analysis of the taxpayer’s appeal. In addition, hearing
officers are also required to document their impartiality in the letters and waivers issued to
taxpayers at the conclusion of the appeal. Including impartiality statements in Appeals closing
correspondence ensures that taxpayers understand that their requests are reviewed by an
impartial hearing officer. However, by not including the required statements in some of the
notification letters, the IRS inadequately documented the assurance of impartiality to some
taxpayers.
Appeals management agreed with the number of errors regarding documentation of impartiality.
They also informed us that they disabled the old versions of the Waiver Letter (L4382) and the
Withdrawal Letter (L4383) on their website. Appeals management also informed us that new
letters with the appropriate documentation language have been published and an alert for the
technical employees for the impartiality documentation will be made in the future.

Some Taxpayer Collection Due Process Hearing and Equivalent
Hearing Requests Were Not Always Timely Referred to Appeals
We found that taxpayer requests were not consistently sent by the IRS’s Collection function to
Appeals in a timely manner. The IRS’s Collection function initiates lien and levy actions that
give rise to the CDP and EH appeals process. Taxpayers are instructed to file their appeal at a
specific address (the location of the Collection employee) and the Collection function forwards

14
   TIGTA, Ref. No. 2012-10-077, Office of Appeals Errors in the Handling of Collection Due Process Cases
Continue to Exist (Jul. 2012).
15
   The IRS is required by statute to make a determination and give notice of that determination to the taxpayer at the
conclusion of a CDP hearing. The form of that notice is incorporated in a Letter 3193.
16
   Under 26 U.S.C. §§ 6320(b)(3) and 6330(b)(3), a taxpayer may waive this requirement.
                                                                                                               Page 6
                         The Office of Appeals Continues to Experience
                  Difficulties in the Handling of Collection Due Process Cases



the taxpayer’s request to Appeals. During our review, we identified 58 taxpayer cases that
exceeded the IRS target time of 90 days to initially resolve or forward the taxpayer request to
Appeals. Twenty-nine of the taxpayer cases took more than 180 days to resolve or forward to
Appeals. Delays in the initial forwarding to Appeals are important because IRS Collection
function employees are required to promptly develop the Form 12153, Request for Collection
Due Process or Equivalent Hearing, to effectively ensure that the taxpayers’ due process rights
are protected. For referrals that take an extended time to reach Appeals, the IRS is suspending
the CSED from the IRS date received. This affects the taxpayer and increases the time allowed
for the IRS to collect any balances owed.




                                                                                          Page 7
                            The Office of Appeals Continues to Experience
                     Difficulties in the Handling of Collection Due Process Cases



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the IRS complied with 26 U.S.C.
§§ 6320(b) and (c) and 6330(b) and (c) when taxpayers exercised their right to appeal the filing
of a Notice of Federal Tax Lien or issuance of a Notice of Intent to Levy. To accomplish this
objective, we:
I.      Determined whether any new procedures or processes have been developed since the
        prior TIGTA statutory review.
II      Selected a statistically valid sample of closed CDP and EH taxpayer cases, obtained the
        Appeals case and IRS Administrative files, and determined whether Appeals had
        completed case files.
        A. Obtained an extract of the Appeals Centralized Database System1 file maintained at
           the TIGTA’s Data Center Warehouse2 of 47,855 CDP and 11,615 EH taxpayer cases
           closed during FY 2012 (October 1, 2011, through September 30, 2012). We
           evaluated the sufficiency and reliability of the electronic data received from the IRS
           to ensure that the data field descriptions were accurately stated. We validated the
           extract by reviewing the appropriateness of data within fields requested and
           comparing population totals to information obtained from Appeals officials.
        B. Selected and secured closed CDP and EH taxpayer cases for our two samples. We
           reviewed statistical attribute samples of 66 CDP taxpayer cases (population of
           47,855) and 66 EH taxpayer cases (population of 11,615). We used a confidence
           level of 90 percent, a precision level of ± 6 percent, and an expected error rate of
           10 percent to determine these sample sizes. We discussed our sampling methodology
           with our contracted statistician, who reviewed and agreed with our projections.
        C. Determined the number of taxpayer cases in our samples for which TIGTA was
           unable to obtain an Administrative or Appeals case file to make a determination of
           whether Appeals complied with U.S.C. §§ 6320 and or 6330.3



1
  The Appeals Centralized Database System is a computerized case control system used to control and track cases
throughout the appeals process.
2
  The TIGTA Data Center Warehouse is a secured centralized storage of IRS database files used to maintain critical
historical data that has been extracted from operational data storage and transformed into formats accessible to
TIGTA employees.
3
  26 U.S.C. §§ 6320 and 6330.
                                                                                                           Page 8
                            The Office of Appeals Continues to Experience
                     Difficulties in the Handling of Collection Due Process Cases



III.    Determined whether Appeals CDP and EH taxpayer cases were classified correctly using
        the CDP and the EH samples reviewed in Step II.B. We also determined whether the
        CSED was calculated correctly on the taxpayer’s account on the Integrated Data
        Retrieval System4 based on the type of hearing granted for the 132 sample items we
        reviewed.
IV.     Determined whether Appeals was in compliance with 26 U.S.C. §§ 6320(b) and (c) and
        6330(b) and (c) using the CDP and the EH samples selected in Step II.B. by reviewing
        case file information to determine whether Appeals documented that the taxpayer was
        provided with an impartial hearing officer or waived this requirement [26 U.S.C.
        §§ 6320(b)(3) and 6330(b)(3)].
V.      Determined whether CDP and EH accounts were properly coded on the Integrated Data
        Retrieval System.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS policies and procedures for
classifying CDP and EH taxpayer cases, ensuring hearing officers met the criteria specified in
26 U.S.C. §§ 6320 and 6330, and reviewing applicable computer codes on the Integrated Data
Retrieval System for CDP and EH taxpayer cases. We evaluated these controls by selecting a
sample of CDP and EH taxpayer cases, reviewing documentation, and discussing potential
exceptions with Appeals officials.




4
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                            Page 9
                        The Office of Appeals Continues to Experience
                 Difficulties in the Handling of Collection Due Process Cases



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Jonathan Meyer, Director
Janice M. Pryor, Audit Manager
Mark A. Judson, Lead Auditor
Dana M. Karaffa, Audit Evaluator




                                                                                    Page 10
                        The Office of Appeals Continues to Experience
                 Difficulties in the Handling of Collection Due Process Cases



                                                                   Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief, Appeals AP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Appeals AP:TP:SS




                                                                          Page 11
                         The Office of Appeals Continues to Experience
                  Difficulties in the Handling of Collection Due Process Cases



                                                                                 Appendix IV

                               Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 1,450 taxpayer cases contain CDP hearing
    requests that were received late and were not properly classified as an EH case (see page 3).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from Appeals Centralized Database System and
identified a population of 47,855 CDP taxpayer cases that were closed in FY 2012. We reviewed
a simple random sample of 66 CDP taxpayer cases and found that ******1*****************
*****************************1****************. We estimate that 3.03 percent of the
taxpayer cases in the population (1,450 taxpayer cases) may have contained misclassified CDP
taxpayer requests. When CDP taxpayer cases are misclassified, taxpayers receive hearing rights
to which they are not legally entitled. Using the Exact Binomial Method, we are 90 percent
confident that the true exception rate is between 0.08 percent and 6.99 percent.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 352 taxpayer cases contain EH hearing
    requests that were received more than one year after the Notice of Intent to Levy and were
    inappropriately provided an EH (see page 3).

Methodology Used to Measure the Reported Benefit:
For the EH sample, we used a computer extract from the Appeals Centralized Database System
and identified 11,615 EH taxpayer cases that were closed in FY 2012. We reviewed a simple
random sample of 66 EH taxpayer cases and found that **************1******************
***************1******************************. We estimate that 3.03 percent of the
taxpayer cases in the population (352 taxpayer cases) may have contained misclassified taxpayer
requests for which Appeals may have improperly provided an EH. Using the Exact Binomial
Method, we are 90 percent confident that the true exception rate is between 0.54 percent and
9.23 percent.


                                                                                           Page 12
                         The Office of Appeals Continues to Experience
                  Difficulties in the Handling of Collection Due Process Cases



Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 352 taxpayer cases contain EH hearing
    requests that were incorrectly processed and were inappropriately provided an EH
    (see page 3).

Methodology Used to Measure the Reported Benefit:
For the EH sample, we used a computer extract from the Appeals Centralized Database System
and identified 11,615 EH taxpayer cases that were closed in FY 2012. We reviewed a simple
random sample of 66 EH taxpayer cases and found that ******************1**************
***********************************************1************************. We
estimate that 3.03 percent of the taxpayer cases in the population (352 taxpayer cases) may have
contained misclassified taxpayer requests for which Appeals may have improperly provided an
EH. Using the Exact Binomial Method, we are 90 percent confident that the true exception rate
is between 0.54 percent and 9.23 percent.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 5,801 taxpayer cases in which taxpayers had
    CDP CSEDs that were inappropriately extended longer than the length of the hearing
    (see page 4).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the Appeals Centralized Database System
and identified a population of 47,855 CDP taxpayer cases that were closed in FY 2012. We
reviewed a simple random sample of 66 CDP taxpayer cases and found that eight of these CDP
taxpayer case files contained instances in which the taxpayer’s CSED had been suspended longer
than the length of the CDP hearing. We estimate that 12.12 percent of the taxpayer cases in the
population (5,801 taxpayer cases) had an incorrect CSED posted to taxpayer records. A CSED
extended in error to a taxpayer case provides the IRS more time than legally allowed to collect
the delinquent taxes. Using the Normal Approximation Method, we are 90 percent confident that
the true exception rate is between 5.47 percent and 18.78 percent.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; 4,350 taxpayer cases indicated taxpayers had CDP CSEDs
    that were not correctly extended for the length of the CDP hearing (see page 4).

Methodology Used to Measure the Reported Benefit:
Using a computer extract from the Appeals Centralized Database System, we identified a
population of 47,855 CDP taxpayer cases that were closed in FY 2012. We reviewed a simple

                                                                                          Page 13
                         The Office of Appeals Continues to Experience
                  Difficulties in the Handling of Collection Due Process Cases



random sample of 66 CDP taxpayer cases and found that six of these CDP taxpayer case files
contained instances in which the taxpayer’s CSED was not correctly extended for the length of
the CDP hearing. We estimate that 9.09 percent of the taxpayer cases in the population
(4,350 taxpayer cases) had an incorrect CSED posted to taxpayer records. A CSED shortened in
error to a taxpayer case provides the IRS less time than legally allowed to collect the delinquent
taxes, which may result in the loss of revenue for the IRS. Using the Normal Approximation
Method, we are 90 percent confident that the true exception rate is between 1.25 percent and
11.33 percent.

Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 7,251 CDP taxpayer cases did not contain the
    impartiality statement documented on the Waiver Letter 4382 or the Withdrawal Letter 4383
    issued to the taxpayer (see page 5).
   Taxpayer Rights and Entitlements – Potential; 528 EH taxpayer cases did not contain the
    impartiality statement documented on the Waiver Letter 4382 or the Withdrawal Letter 4383
    issued to the taxpayer (see page 5).

Methodology Used to Measure the Reported Benefit:
For the CDP sample, we used a computer extract from the Appeals Centralized Database System
and identified a population of 47,855 CDP taxpayer cases that were closed in FY 2012. We
reviewed a simple random sample of 66 CDP taxpayer cases and found that 10 of these CDP
taxpayer case files did not contain the required impartiality statement on the Waiver Letter 4382
or the Withdrawal Letter 4383 issued to the taxpayer. We estimate that 15.15 percent of the
taxpayer cases in the population (7,251 CDP taxpayer cases) did not contain the required
impartiality statement. Using the Normal Approximation Method, we are 90 percent confident
that the true exception rate is between 7.84 percent and 22.46 percent.
For the EH sample, we used a computer extract from the Appeals Centralized Database System
and identified 11,615 EH taxpayer cases that were closed in FY2012. We reviewed a simple
random sample of 66 EH taxpayer cases and found that three of these EH taxpayer case files did
not contain the required impartiality statement on the Waiver Letter 4382 or the Withdrawal
Letter 4383 issued to the taxpayer. We estimate that 4.55 percent of the taxpayer cases in the
population (528 EH taxpayer cases) did not contain the required impartiality statement. Using
the Exact Binomial Method, we are 90 percent confident that the true exception rate is between
1.25 percent and 11.33 percent.




                                                                                           Page 14
                          The Office of Appeals Continues to Experience
                   Difficulties in the Handling of Collection Due Process Cases



                                                                                    Appendix V

                 Collection Due Process Procedures

The IRS is required to notify taxpayers in writing that a lien has been filed or when it intends to
levy. A taxpayer is allowed to appeal the filing of the lien or proposed levy action through the
CDP by filing a hearing request. This hearing request must be received within 30 calendar days
plus five business days of the filing of the lien or within 30 calendar days of the date of the
Notice of Intent to Levy. If a taxpayer’s hearing request is submitted on time, the IRS will
suspend all collection efforts and the Office of Appeals (Appeals) will provide the taxpayer a
CDP hearing. If a taxpayer’s hearing request is not submitted timely, Appeals has discretionary
authority to provide the taxpayer an EH and consider the same issues as in a CDP hearing for
both liens and levies; however, the IRS is not required to suspend collection action, and the
taxpayer does not have the right to a judicial review.
Taxpayers are entitled to one hearing per tax period for which a lien or Notice of Intent to Levy
has been issued. The hearing is conducted by an appeals officer or settlement officer (hearing
officer) who has had no prior involvement with the unpaid tax. During the hearing, the hearing
officer must verify whether the requirements of all applicable laws or administrative procedures
related to the lien or Notice of Intent to Levy were met. The hearing officer must also address
any issues the taxpayer may raise relevant to the unpaid tax, the filing of the lien, or the proposed
levy, such as whether the taxpayer is an innocent spouse; determine if collection actions were
appropriate; and decide if other collection alternatives would facilitate the payment of the tax.
The hearing officer must determine whether any proposed collection action balances the need for
efficient collection of taxes with the taxpayer’s legitimate concerns. The taxpayer may not raise
an issue that was considered at a prior administrative or judicial hearing if the taxpayer
participated meaningfully in the prior proceeding.
At the conclusion of a hearing, Appeals provides the taxpayer a letter with the hearing officer’s
findings, agreements reached with the taxpayer, any relief provided to the taxpayer, and any
actions the taxpayer or the IRS are required to take. For a CDP case, the taxpayer receives a
Letter 3193, Notice of Determination Concerning Collection Actions Under Sections 6320 and
6330, which provides an explanation of the right to a judicial review. If the taxpayer disagrees
with the Appeals decision, he or she may petition the Tax Court. For an EH case, the taxpayer
receives a Letter 3210, Decision Letter Concerning Equivalent Hearing Under Section 6320
and/or 6330. If the taxpayer disagrees with the Appeals decision in an EH, he or she may not
petition the courts. For both applicable CDP and EH cases, the taxpayer may receive a




                                                                                             Page 15
                            The Office of Appeals Continues to Experience
                     Difficulties in the Handling of Collection Due Process Cases



Form 12257, Waiver of Appeals Notice of Determination in a Collection Due Process Hearing,1
or a Form 12256, Withdrawal of Request for Collection Due Process or Equivalent Hearing.
Waiver Form 12256 and Letter 4382 are applicable when the taxpayer agrees with Appeals,
waives the right to a judicial review, and waives the suspension of collection action. Withdrawal
Form 12257 and Letter 4383 are applicable when the taxpayer has reached a resolution with the
IRS regarding the tax and tax periods and he or she is otherwise satisfied that a hearing with the
Office of Appeals is no longer needed.
The CDP or EH case is generally reviewed by the hearing officer’s manager at the completion of
the case to evaluate whether the hearing officer followed all requirements and procedures.2
After Appeals has made a determination on a case, if the taxpayer has a change in circumstances
that affects the Appeals determination or if the Collection function does not carry out the
determination, the taxpayer has the right to return to Appeals. The Appeals office that made the
original determination generally retains jurisdiction over the case.




1
  A Form 12257 Waiver is a signed agreement between the taxpayer and the IRS where the taxpayer waives the right
to a judicial review and waives the suspension of collection action. For example, these taxpayers may have agreed
to an installment agreement, offer in compromise, or other collection alternative.
2
  Per Appeals Delegation Order APP-193-1, managerial approval of a CDP determination is not required when the
only issue raised is a collection alternative and that issue is resolved with a streamlined installment agreement.
                                                                                                         Page 16
                            The Office of Appeals Continues to Experience
                     Difficulties in the Handling of Collection Due Process Cases



                                                                                              Appendix VI

              Time Periods for Collection Due Process
                     and Equivalent Hearings

Taxpayers must appeal within certain deadlines to qualify for either a CDP hearing or an EH,
depending on whether the taxpayer is appealing a proposed levy or a tax lien.1

Collection Due Process Deadlines

   Lien Notice – A request for a CDP hearing for a Federal tax lien filing must be postmarked
    by the date indicated in the Letter 3172, Notice of Federal Tax Lien Filing and Your Rights
    to a Hearing Under IRC 6320 (lien notice).

   Levy Notice – A request for a CDP hearing for a levy must be postmarked within 30 days
    after the date of the Letter 11/1058, Notice of Intent to Levy and Notice of Your Right to a
    Hearing (levy notice).

Equivalent Hearing Deadlines
Taxpayers who miss the deadline for a CDP hearing may request an EH within the following
time periods:

   Lien Notice – one year plus five business days from the filing date of the Notice of Federal
    Tax Lien.

   Levy Notice – one year from the date of the levy notice

Timeliness Considerations

Any written request for a CDP hearing should be filed at the address indicated on the notice. If
the request is not sent to the correct address, it must be received by the correct office within the
30-day period in order to be timely.
Source: Publication 1660, Collection Appeal Rights (Rev. 10-2012).


1
 Form 12153, Request for a Collection Due Process Hearing (Rev. 3-2011), explains the deadlines for requesting a
CDP hearing or an EH. Regulations also specify that the written request for a CDP hearing must be sent, or hand
delivered (if permitted), to the IRS office and address as directed on the CDP Notice (26 CFR § 301.6330–1, Q C-6,
April 1, 2011).
                                                                                                          Page 17
                         The Office of Appeals Continues to Experience
                  Difficulties in the Handling of Collection Due Process Cases



                                                                             Appendix VII


                       Prior Mandatory Collection
                       Due Process Audit Reports


Below is a list of the prior TIGTA audits of the Appeals Collection Due Process performed
during FY 2009 through FY 2012.


   FY 2009 – TIGTA, Ref. No. 2009-10-126, The Office of Appeals Continues to Improve
    Compliance With Collection Due Process Requirements (Sept. 2009).


   FY 2010 – TIGTA, Ref. No. 2010-10-075, The Office of Appeals Has Improved
    Compliance Within Its Collection Due Process Program; However, Some Improvement Is
    Still Needed (July 2010).


   FY 2011 – TIGTA, Ref. No. 2011-10-062, Additional Improvements Are Needed in the
    Office of Appeals Collection Due Process Program to Ensure Statutory Requirements Are
    Met (Aug. 2011).

   FY 2012 – TIGTA, Ref. No. 2012-10-077, Office of Appeals Errors in the Handling of
    Collection Due Process Cases Continue to Exist (July 2012).




                                                                                        Page 18
            The Office of Appeals Continues to Experience
     Difficulties in the Handling of Collection Due Process Cases



                                                     Appendix VIII

Management’s Response to the Draft Report




                                                              Page 19
       The Office of Appeals Continues to Experience
Difficulties in the Handling of Collection Due Process Cases




                                                         Page 20
